Page 2 – Kerry Weems


   •   $373,697 ($186,849 Federal share) resulting from errors in the random moment
       timestudy base that was used to allocate eligibility fieldworker costs.

The State agency also claimed $509,210 at unallowable enhanced Federal funding rates (75 and
90 percent). Although these costs were eligible for Federal reimbursement at the standard
50-percent rate, they did not meet enhanced-rate guidelines; therefore, the State agency
improperly received $128,204 in enhanced funding.

We could not determine what portion of $772,296 ($386,148 Federal share) was allowable. The
State agency claimed 100 percent of the costs for medical assistance workers and TANF program
employees to Medicaid even though their work also benefited other programs. In addition, we
could not determine the allowability of $8,507,815 ($6,380,862 Federal share) for an adjustment
that the State agency made to claim TANF transition costs at an enhanced Federal funding rate.
These costs included salaries and benefits that were (1) allocated based on a flawed random
moment timestudy and (2) charged 100 percent to Medicaid even though the employees’ efforts
also benefited other programs.

We recommend that the State agency:

   •   refund $1,198,105 to CMS for unallowable administrative costs ($1,069,901) and
       improper reimbursement related to enhanced Federal funding ($128,204);

   •   work with CMS to identify the allowable portion of the $772,296 ($386,148 Federal
       share) in costs for medical assistance workers and TANF program employees and
       develop an allocation methodology for these employees;

   •   work with CMS to identify the allowable portion of the $8,507,815 ($6,380,862 Federal
       share) adjustment made to claim TANF transition costs at an enhanced Federal funding
       rate;

   •   establish review procedures to ensure that administrative costs are correctly compiled,
       assigned, and claimed; and

   •   ensure that supervisors responsible for documenting random moment timestudy results
       sample only the appropriate eligibility fieldworkers.

In written comments on our draft report, the State agency agreed with most of our findings and
recommendations. The State agency said that it would refund to CMS $1,176,577 of the
$1,198,105 in unallowable Medicaid administrative costs and enhanced Federal funding rate
costs. The State agency disagreed with findings totaling $21,528 in the “Miscellaneous
Overcharges” section of the report.

After reviewing the State agency’s comments and the documentation that it provided, we
maintain that our findings and recommendations are valid and that the State agency should
refund the entire $1,198,105 to CMS.
Page 3 – Kerry Weems


If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through e-mail at George.Reeb@oig.hhs.gov
or Gordon L. Sato, Regional Inspector General for Audit Services, Region VI, at (214) 767-8414
or through e-mail at Gordon.Sato@oig.hhs.gov. Please refer to report number A-06-07-00072.


Attachment
Page 2 – Ms. L. Elaine Olah


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  REVIEW OF NEW MEXICO’S
  MEDICAID ADMINISTRATIVE
COSTS FOR THE QUARTER ENDED
     SEPTEMBER 24, 2004




                    Daniel R. Levinson
                     Inspector General

                      December 2008
                      A-06-07-00072
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
' 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                 EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

The New Mexico Human Services Department (the State agency) is responsible for overseeing
New Mexico’s Medicaid program. The State agency contracts with the New Mexico Department
of Health for assistance with administrative duties. The State agency reports all administrative
costs and requests Federal reimbursement for a portion of the costs on the “Quarterly Medicaid
Statement of Expenditures for the Medical Assistance Program” (Form CMS-64). The Federal
share of Medicaid administrative costs is typically 50 percent, but enhanced rates of 75 and
90 percent may be claimed for some costs.

For the quarter ended September 30, 2004, the State agency claimed $16,345,859 ($10,262,046
Federal share) in Medicaid administrative costs. In addition, the State agency made an
$8,507,815 ($6,380,862 Federal share) adjustment to claim Temporary Assistance for Needy
Families (TANF) program transition costs from seven prior quarters at an enhanced Federal
funding rate.

OBJECTIVE

Our objective was to determine whether Medicaid administrative costs that the State agency
claimed for the quarter ended September 30, 2004, were reasonable, allocable, and allowable for
reimbursement under the Medicaid program.

SUMMARY OF FINDINGS

For the quarter ended September 30, 2004, the State agency claimed $1,471,133 ($1,069,901
Federal share) of unallowable Medicaid administrative costs, consisting of:

   •   $1,097,436 ($883,052 Federal share) for costs claimed due to errors in compiling the
       Form CMS-64 and

   •   $373,697 ($186,849 Federal share) resulting from errors in the random moment
       timestudy base that was used to allocate eligibility fieldworker costs.

The State agency also claimed $509,210 at unallowable enhanced Federal funding rates (75 and
90 percent). Although these costs were eligible for Federal reimbursement at the standard




                                           i
50-percent rate, they did not meet enhanced-rate guidelines; therefore, the State agency
improperly received $128,204 in enhanced funding.

We could not determine what portion of $772,296 ($386,148 Federal share) was allowable. The
State agency claimed 100 percent of the costs for medical assistance workers and TANF program
employees to Medicaid even though their work also benefited other programs.

The following table summarizes the Medicaid administrative costs that we reviewed.

                                Administrative Costs Reviewed
                          for the Quarter Ended September 30, 2004

                                                 Total Costs Claimed      Federal Share
       Costs claimed                                 $16,345,859           $10,262,046
       Unallowable costs                               (1,471,133)          (1,069,901)
       Unallowable enhanced funding                 Not applicable            (128,204)
       Undetermined costs                                (772,296)            (386,148)
        Total allowable                              $14,102,430            $8,677,793

In addition, we could not determine the allowability of $8,507,815 ($6,380,862 Federal share)
for an adjustment that the State agency made to claim TANF transition costs at an enhanced
Federal funding rate. These costs included salaries and benefits that were (1) allocated based on
a flawed random moment timestudy and (2) charged 100 percent to Medicaid even though the
employees’ efforts also benefited other programs.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $1,198,105 to CMS for unallowable administrative costs ($1,069,901) and
       improper reimbursement related to enhanced Federal funding ($128,204);

   •   work with CMS to identify the allowable portion of the $772,296 ($386,148 Federal
       share) in costs for medical assistance workers and TANF program employees and
       develop an allocation methodology for these employees;

   •   work with CMS to identify the allowable portion of the $8,507,815 ($6,380,862 Federal
       share) adjustment made to claim TANF transition costs at an enhanced Federal funding
       rate;

   •   establish review procedures to ensure that administrative costs are correctly compiled,
       assigned, and claimed; and

   •   ensure that supervisors responsible for documenting random moment timestudy results
       sample only the appropriate eligibility fieldworkers.



                                            ii
STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with most of our findings and
recommendations. The State agency said that it would refund to CMS $1,176,577 of the
$1,198,105 in unallowable administrative costs and enhanced Federal funding rate costs. The
State agency disagreed with findings totaling $21,528 in the “Miscellaneous Overcharges”
section of the report. The State agency’s comments are included in their entirety as the
Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency’s comments and the documentation that it provided, we
maintain that our findings and recommendations are valid and that the State agency should
refund the entire $1,198,105 to CMS.




                                           iii
                                                  TABLE OF CONTENTS

                                                                                                                                    Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................2
               Objective ..............................................................................................................2
               Scope....................................................................................................................2
               Methodology ........................................................................................................2

FINDINGS AND RECOMMENDATIONS ............................................................................3

          COST COMPILATION ERRORS ..................................................................................4
               Duplicated Costs ..................................................................................................4
               Allocation Errors..................................................................................................5
               Miscellaneous Overcharges .................................................................................6

          RANDOM MOMENT TIMESTUDY ERRORS ............................................................6

          INCORRECT FEDERAL FUNDING RATES ...............................................................7
              Improperly Documented Work Activities.............................................................7
              Enhanced Rate Applied to Ineligible Employees..................................................8
              Special Funding Exhausted ...................................................................................9

          POTENTIALLY UNALLOWABLE COSTS .................................................................9

          POTENTIALLY UNALLOWABLE ADJUSTMENT FOR PRIOR QUARTERS........10

          RECOMMENDATIONS.................................................................................................10

          STATE AGENCY COMMENTS....................................................................................11

          OFFICE OF INSPECTOR GENERAL RESPONSE ......................................................11

APPENDIX

          STATE AGENCY COMMENTS




                                                               iv
                                                   INTRODUCTION

BACKGROUND

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

The New Mexico Human Services Department (the State agency) is responsible for overseeing
New Mexico’s Medicaid program. The State agency contracts with the New Mexico Department
of Health for assistance with administrative duties. The State agency reports all administrative
costs and requests Federal reimbursement on the “Quarterly Medicaid Statement of Expenditures
for the Medical Assistance Program” (Form CMS-64). The Federal share of Medicaid
administrative costs is typically 50 percent, but enhanced rates of 75 and 90 percent may be
claimed for some costs.

Administrative costs for Medicaid are to be allocated in accordance with a public assistance cost
allocation plan. Federal regulations (45 CFR, subpart E, § 95.507(a)(2)) require that cost
allocation plans conform to the accounting principles and standards in Office of Management
and Budget (OMB) Circular A-87, “Cost Principles for State, Local, and Indian Tribal
Governments.” The circular states that (1) costs are allocable to a particular cost objective if the
goods or services involved are chargeable or assignable to the cost objective in accordance with
the relative benefits received, (2) only allocable costs are allowable, and (3) costs must be
reasonable and necessary for proper administration of the program. 1

The State agency initially claimed $28,226,614 ($19,873,232 Federal share) in administrative
costs for the quarter ended September 30, 2004. In September 2005, however, the State agency
amended the original claim by reducing the claimed costs to $16,345,859 ($10,262,046 Federal
share). During this quarter, the State agency also made an $8,507,815 ($6,380,862 Federal
share) adjustment to claim Temporary Assistance for Needy Families (TANF) program transition
costs from seven prior quarters at an enhanced Federal funding rate.

The State agency assigned two categories of administrative costs to the Medicaid program:
direct costs and indirect costs. Direct costs are expenditures that can be identified specifically
with a particular final cost objective. Indirect costs are expenditures that benefit more than one
cost objective but are not readily assignable to individual cost objectives.

The State agency’s cost allocation plan describes the methods that the State agency uses to
equitably allocate indirect administrative costs to individual programs. The State agency
allocated indirect costs using several approaches, including a random moment timestudy, number
of employees, employee time and effort, training hours, and number of processed claims.


1
    A cost objective is a function, organization subdivision, contract, grant, or activity for which costs are incurred.
                                                          1
The State agency used a random moment timestudy to allocate the costs of employees
responsible for determining whether individuals were eligible for various programs (eligibility
fieldworkers), including Medicaid. The State agency sent a survey to division supervisors at
various times during the quarter and asked them to record the programs on which their
employees were working at a specific time. The State agency allocated the employees’ costs
based on the percentage of responses for each program. In addition, State agency personnel
made adjustments to reallocate certain costs at the end of the quarter.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Medicaid administrative costs that the State agency
claimed for the quarter ended September 30, 2004, were reasonable, allocable, and allowable for
reimbursement under the Medicaid program.

Scope

For the quarter ended September 30, 2004, the State agency claimed administrative costs totaling
$16,345,859 ($10,262,046 Federal share). Of the $16,345,859 claimed, $8,124,036 ($6,151,133
Federal share) was direct costs and $8,221,823 ($4,110,913 Federal share) was indirect costs.

During this quarter, the State agency also made an adjustment of $8,507,815 ($6,380,862 Federal
share) to claim TANF transition costs from seven preceding quarters (October 1, 2002, through
June 30, 2004) at a 75-percent Federal funding rate rather than the 50-percent rate it had already
claimed for these costs.

Because our objectives did not require an understanding or assessment of the State agency’s
overall internal control structures, we did not perform such a review. We limited our review of
internal controls to obtaining an understanding of New Mexico’s Medicaid administrative costs
and determining whether the costs were reasonable, allocable, and allowable for reimbursement
under the Medicaid program.

We performed our fieldwork at the State agency’s office in Santa Fe, New Mexico.

Methodology

To accomplish our objective, we:

   •    reviewed the mathematical calculations supporting the data that the State agency
        submitted to CMS in support of its Form CMS-64 for the quarter ended September 30,
        2004;

   •    reviewed the cost allocation plan in effect during the quarter;

   •    obtained an understanding of the State agency’s cost categories, claims processing, and
        budget policies by interviewing personnel involved with allocating costs, processing
        claims, and budgeting;
                                              2
   •   reviewed employee human resource files for job descriptions and salary data;

   •   interviewed staff in various State agency divisions;

   •   reviewed administrative cost invoices;

   •   reviewed allocation methodologies that the State agency employed to assign costs to
       Medicaid; and

   •   reviewed cost adjustment documentation affecting the seven previous quarters and
       discussed the adjustment with CMS.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

For the quarter ended September 30, 2004, the State agency claimed $1,471,133 ($1,069,901
Federal share) of unallowable Medicaid administrative costs, consisting of:

   •   $1,097,436 ($883,052 Federal share) for costs claimed due to errors in compiling the
       Form CMS-64 and

   •   $373,697 ($186,849 Federal share) resulting from errors in the random moment
       timestudy base that was used to allocate eligibility fieldworker costs.

The State agency also claimed $509,210 at unallowable enhanced Federal funding rates (75 and
90 percent). Although these costs were eligible for Federal reimbursement at the standard 50-
percent rate, they did not meet enhanced-rate guidelines; therefore, the State agency improperly
received $128,204 in enhanced funding.

We could not determine what portion of $772,296 ($386,148 Federal share) claimed was
allowable. The State agency claimed 100 percent of the costs for medical assistance workers and
TANF program employees to Medicaid even though their work also benefited other programs.

Table 1 on the next page summarizes the Medicaid administrative costs that we reviewed.




                                            3
                                 Table 1: Administrative Costs Reviewed
                                for the Quarter Ended September 30, 2004

                                                         Total Costs Claimed          Federal Share
           Costs claimed                                     $16,345,859               $10,262,046
           Unallowable costs                                   (1,471,133)              (1,069,901)
           Unallowable enhanced funding                    Not applicable 2               (128,204)
           Undetermined costs                                    (772,296)                (386,148)
            Total allowable                                  $14,102,430                $8,677,793

In addition, we could not determine the allowability of the $8,507,815 ($6,380,862 Federal
share) adjustment that the State agency made to claim TANF transition costs at an enhanced
Federal funding rate. These costs included salaries and benefits that were (1) allocated based on
a flawed random moment timestudy and (2) charged 100 percent to Medicaid even though the
employees also worked on other programs.

COST COMPILATION ERRORS

The State agency mistakenly claimed $1,097,436 ($883,052 Federal share), consisting of:

       •   $843,361 ($756,015 Federal share) that was claimed twice,
       •   $210,001 ($105,000 Federal share) that had allocation errors, and
       •   $44,074 ($22,037 Federal share) that was miscellaneous overcharges.

Footnotes in the Form CMS-64 summary stated: “Due to time con[s]traint, report was certified
but inaccurate.” State agency officials responsible for compiling costs and creating the Form
CMS-64 explained that available State agency staff was limited and did not receive cost data
from appropriate State officials in time to verify the accuracy of the data.

Duplicated Costs

OMB Circular A-87, Attachment A, section C(3)(a), states that costs are allocable to a particular
cost objective if the goods or services involved are chargeable or assignable to the cost objective
in accordance with the relative benefits received.

The State agency claimed $843,361 ($756,015 Federal share) twice:

       •   $803,922 ($723,530 Federal share) for contracted services and
       •   $39,439 ($32,485 Federal share) for salaries and benefits of four employees.

State agency officials initially recorded the cost of the contracted services in an incorrect
account. Although they recognized the error and paid for the services with funds from the
correct account, they failed to remove the cost from the incorrect account. As a result, the cost
of the contracted services was included on the Form CMS-64 twice.


2
    No amount is shown in the “Total Costs Claimed” column because the amount claimed was allowable.
                                                    4
For two of the four employees whose salary and benefit costs were claimed twice, the State
agency claimed the employees as both private contractors and State employees on the Form
CMS-64. For the third employee, who transferred from one department to another, State agency
officials added the employee’s salary and benefit costs to the new department but failed to
remove the costs from the original department. The salary and benefit costs for the remaining
employee were mistakenly included in an adjustment made to allocate the training unit’s costs.
As a result, this employee’s salary and benefit costs were claimed twice.

Allocation Errors

OMB Circular A-87, Attachment A, section C(3)(a), states that costs are allocable to a particular
cost objective if the goods or services involved are chargeable or assignable to that cost objective
in accordance with the relative benefits received.

The State agency inappropriately claimed $210,001 ($105,000 Federal share) because of
allocation errors. The costs consisted of:

   •   $160,195 ($80,097 Federal share) of indirect costs associated with family assistance
       analysts,

   •   $42,286 ($21,143 Federal share) for the accounts receivable unit, and

   •   $7,520 ($3,760 Federal share) for the training unit.

The State agency overstated the indirect cost base used to allocate indirect costs to the family
assistance analysts by $513,666. The base included amounts for which the State agency could
not provide support. Because the indirect cost base was overstated, the cost ultimately allocated
to the Medicaid program was also overstated.

The State agency allocated costs for the accounts receivable unit based on the percentage of
claims processed during the quarter. The electronic spreadsheet used to compute the number of
claims processed for each program contained formula errors that resulted in an incorrect
summation of claims processed for the Medicaid program. As a result, the Medicaid allocation
was based on 59,740 claims rather than the appropriate 3,691 claims. Because the spreadsheet
was inaccurate, the State agency allocated 42.79 percent of the unit’s costs to the Medicaid
program rather than the appropriate 2.64 percent.

The State agency allocated costs for the training unit based on the number of hours that
employees attended program-specific training. The Medicaid training hour total was overstated
by 87 hours because the State agency included 247 hours of training that benefited other
programs and excluded 160 hours of training that benefited the Medicaid program. In addition,
the non-Medicaid training hour total was understated by 2,083 hours because the electronic
spreadsheet used to compute the hours contained formula errors that incorrectly summed the
hours. The State agency allocated 40.20 percent of the training unit costs to the Medicaid
program when it should have allocated 24.96 percent.




                                             5
Miscellaneous Overcharges

OMB Circular A-87, Attachment A, section C(3)(a), states that costs are allocable to a particular
cost objective if the goods or services involved are chargeable or assignable to that cost objective
in accordance with the relative benefits received. Additionally, OMB Circular A-87, Attachment
A, section C(1)(j), states that costs must be adequately documented.

The State agency mistakenly claimed $44,074 ($22,037 Federal share), which consisted of:

   •   $22,614 ($11,307 Federal share) in costs that were not allocable to Medicaid because the
       costs were fully funded through a separate (non-Medicaid) Federal grant;

   •   $20,442 ($10,221 Federal share) in third-party liability costs of $10,221 that it added to
       the administrative cost claim rather than subtracting, thus overstating the relative benefit
       to Medicaid; and

   •   $1,018 ($509 Federal share) for mail service expenses that were not supported by an
       invoice or other evidence that an expenditure had occurred.

RANDOM MOMENT TIMESTUDY ERRORS

OMB Circular A-87, Attachment B, section 8(h)(6), states that methods such as random moment
sampling may be used to allocate salaries and wages to Federal awards and that the sampling
universe must include all of the employees whose salaries and wages are allocated based on the
sample results. Additionally, according to the State agency’s cost allocation plan, only the cost
of eligibility fieldworkers may be allocated to Medicaid using data gathered from the random
moment timestudy.

The State agency did not accurately capture the random moment timestudy responses for the
eligibility fieldworker allocation. The State agency mistakenly excluded three eligibility
fieldworkers’ responses that should have been included in the Medicaid response total.
Additionally, the State agency included in the Medicaid response total 152 responses for 34
medical assistance workers who should not have been sampled because (1) their costs were
already charged 100 percent to Medicaid and were not allocated based on the timestudy results
and (2) they were not eligibility fieldworkers. Supervisors responsible for documenting the
programs on which the eligibility fieldworkers were working at a specific time inappropriately
sampled these employees and included their responses in the Medicaid response total. As a
result of these errors, the State agency assigned the Medicaid program 149 more responses than
it should have, for a total of 751 Medicaid responses. The State agency also inaccurately
captured response totals for other programs.

We recalculated the random moment timestudy responses as shown in Table 2. We determined
that the State agency should have used a response total in all categories of 2,542 responses.
Correcting the response totals for each program resulted in a 3.59-percent decrease to the
Medicaid allocation, from 27.27 to 23.68 percent. After accounting for all of these changes, our
recalculation showed that the State agency overclaimed $373,697 ($186,849 Federal share) on its
Form CMS-64.

                                             6
           Table 2: State Agency Random Moment Timestudy Allocation Results
                       and Office of Inspector General Recalculation

                                  State Agency                 Office of Inspector
                                Allocation Results           General Recalculation
                               Total       Allocation         Total        Allocation
              Program        Responses     Percentage       Responses Percentage
           Food Stamps         1,458         52.94            1,458          57.36
           Medicaid              751         27.27              602          23.68
           TANF                  440         15.98              404          15.89
           Other Federal          42           1.52              41            1.61
           State funded           63           2.29              37            1.46
             Total             2,754                          2,542

INCORRECT FEDERAL FUNDING RATES

The State agency claimed $509,210 ($382,809 Federal share) at enhanced Federal funding rates
(75 and 90 percent) for costs that did not meet enhanced-rate guidelines and thus received
$128,204 of improper reimbursement. The total included:

   •   $92,935 for improperly documented work activities,
   •   $22,982 for employees who were not skilled professional medical personnel, and
   •   $12,287 for special funding that had already been exhausted.

Improperly Documented Work Activities

Federal regulations (42 CFR § 432.50(c)) provide that personnel and staff costs incurred for staff
time split among functions matched at different rates must be allocated based on either actual
percentages of time spent carrying out duties and functions that qualify for the enhanced rate or
another methodology approved by CMS. Pursuant to OMB Circular A-87, Attachment B,
section 8(h):

       (4) Where employees work on multiple activities or cost objectives, a distribution
       of their salaries or wages will be supported by personnel activity reports or
       equivalent documentation which meets the standards in subsection (5) . . . .
       (5) Personnel activity reports or equivalent documentation must meet the
       following standards: (a) They must reflect an after-the-fact distribution of the
       actual activity of each employee . . . and (d) They must be signed by the
       employee.

The State agency’s cost allocation plan indicated that employees in certain administrative areas
submit time-and-effort reports that identify the percentage of time and effort allocable to each
program.

The State agency claimed enhanced Federal funding rates of 75 and 90 percent without properly
documenting employee work activities. Timesheets that the employees signed showed only the
number of hours worked daily and did not reflect the amount of time spent on various programs

                                            7
eligible for enhanced Federal funding rates. Instead, the employees’ supervisors estimated the
amount of time that each employee spent on those programs. There was no evidence in the State
agency’s cost allocation plan that CMS approved such a methodology. Because the employees
did not submit or sign timesheets that reflected after-the-fact distribution of activities for
different programs, their salaries and benefits were eligible only for the 50-percent
reimbursement rate.

The State agency claimed $368,134 at enhanced Federal funding rates and received $277,002 in
Federal funding. The State agency should have claimed the costs at the 50-percent rate and
received $184,067. The State agency overstated the Federal share by the difference of $92,935.

Enhanced Rate Applied to Ineligible Employees

Federal regulations (42 CFR § 432.2) define skilled medical personnel as:

       . . . physicians, dentists, nurses, and other specialized personnel who have
       professional education and training in the field of medical care or appropriate
       medical practice and who are in the employer-employee relationship with the
       Medicaid agency. It does not include other nonmedical health professionals such
       as public administrators, medical analysts, lobbyists, senior managers or
       administrators of public assistance programs or the Medicaid program.

Federal regulations (42 CFR § 432.50(d)(1)) also state that a 75-percent enhanced Federal
funding rate is available for skilled professional medical personnel and staff who directly support
them if the following criteria, as applicable, are met:

       (iii) The skilled professional medical personnel are in positions that have duties
       and responsibilities that require those professional medical knowledge and skills.
       [and] . . . . (v) The directly supporting staff are secretarial, stenographic, and
       copying personnel and file and records clerks who provide clerical services that
       are directly necessary for the completion of the professional medical
       responsibilities and functions of the skilled professional medical staff. The skilled
       professional medical staff must directly supervise the supporting staff and the
       performance of the supporting staff’s work.

The State agency claimed the 75-percent enhanced rate for ineligible employees. For example,
the State agency claimed the enhanced rate for:

   •   a program manager whose duties and responsibilities were analytical in nature and did
       not require professional medical knowledge and skills,

   •   a staff manager who had participated in improving New Mexico’s Medicaid
       transportation program, and

   •   an office clerk whose direct supervisor was not classified by the State agency as skilled
       professional medical staff.


                                             8
A State agency official believed that the employees claimed as skilled professional medical
personnel worked in positions that were eligible for the enhanced Federal funding rate.

The State agency claimed $91,928 at the enhanced Federal funding rate and received $68,946 in
Federal funding for salaries and benefits. The State agency should have claimed the costs at the
50-percent rate and received $45,964. The State agency overstated the Federal share by the
difference of $22,982.

Special Funding Exhausted

In accordance with 62 Federal Register 26545 through 26550 (May 14, 1997) and corresponding
State Medicaid director letters, CMS explained its implementation of the appropriated special
funding for individuals transitioning from the Aid to Families with Dependent Children program
to the new TANF program. 3 CMS set forth the methodology for States to claim costs incurred as
a result of this transition at an enhanced Federal funding rate of 75 percent. Costs incurred after
States exhausted the special funding were to be claimed at the usual 50-percent Federal funding
rate.

The State agency claimed $49,148 at the enhanced Federal funding rate even though the
appropriated special funding had already been exhausted. The State agency received $36,861 in
Federal funding rather than the $24,574 that it should have received. As a result, the State
agency overstated the Federal share by $12,287.

POTENTIALLY UNALLOWABLE COSTS

OMB Circular A-87, Attachment A, section C(3)(a), states that costs are allocable to a particular
cost objective if the goods or services involved are chargeable or assignable to that cost objective
in accordance with the relative benefits received.

The State agency charged Medicaid for 100 percent of the costs totaling $772,296 ($386,148
Federal share) for 34 medical assistance workers and 5 TANF program employees. These
employees were included in the random moment timestudy universe even though their costs
were not allocated based on the sample results. The random moment timestudy responses for
these employees, however, indicated that they had been determining beneficiary eligibility for
programs other than Medicaid, including Food Stamps and General Assistance. Some medical
assistance workers told us that they had determined beneficiary eligibility for multiple programs,
and some of their supervisors confirmed this.

The costs for medical assistance and TANF program workers were charged exclusively to the
Medicaid program even though their work benefited other programs. Some portion of the costs
for these employees was potentially allowable. However, determining the appropriate allocation
of their costs was outside the scope of this audit. As a result, we express no opinion on the costs
for these employees.


3
 The Personal Responsibility and Work Opportunity Act of 1996, P.L. No. 104-193, amended section 1931 of the
Social Security Act by establishing a $500 million fund for enhanced Federal matching of administrative
expenditures attributed to the costs of determining Medicaid eligibility related to the TANF program.
                                                  9
POTENTIALLY UNALLOWABLE ADJUSTMENT FOR PRIOR QUARTERS

The State agency made an $8,507,815 ($6,380,862 Federal share) adjustment to claim TANF
transition costs for seven preceding quarters at the 75-percent enhanced Federal funding rate.
This adjustment consisted of (1) eligibility fieldworker salary and benefit costs allocated to the
Medicaid program through the random moment timestudy and (2) medical assistance worker
salary and benefit costs. These costs previously had been claimed at the 50-percent rate. By
reclaiming the $8,507,815 at the enhanced 75-percent rate, the State agency was able to claim an
additional $2,126,954 in Federal funding.

As explained in the “Random Moment Timestudy Errors” section, the sample for the quarter that
we reviewed included responses for employees who should not have been sampled, resulting in
an overstatement of Medicaid costs. A State agency official told us that the State agency had
employed the same random moment timestudy design during the previous seven quarters. We
reviewed summary documentation for the previous quarters and noted that the Medicaid
allocation percentage resulting from the random moment timestudy was consistent.

Similarly, the random moment responses for medical assistance workers, whose salaries and
benefits were claimed solely as Medicaid administrative costs, indicated that those medical
assistance workers had determined beneficiary eligibility for programs other than Medicaid.

Recalculating the random moment timestudy for the previous seven quarters and determining the
appropriate allocation for the medical assistance and TANF employees was outside the scope of
our audit. As a result, we express no opinion on the $8,507,815 ($6,380,862 Federal share)
adjustment.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $1,198,105 to CMS for unallowable administrative costs ($1,069,901) and
       improper reimbursement related to enhanced Federal funding ($128,204);

   •   work with CMS to identify the allowable portion of the $772,296 ($386,148 Federal
       share) in costs for medical assistance workers and TANF program employees and
       develop an allocation methodology for these employees;

   •   work with CMS to identify the allowable portion of the $8,507,815 ($6,380,862 Federal
       share) adjustment made to claim TANF transition costs at an enhanced Federal funding
       rate;

   •   establish review procedures to ensure that administrative costs are correctly compiled,
       assigned, and claimed; and

   •   ensure that supervisors responsible for documenting random moment timestudy results
       sample only the appropriate eligibility fieldworkers.


                                            10
STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with most of our findings and
recommendations. Regarding the unallowable administrative costs and enhanced Federal
funding rates, the State agency said that it would refund to CMS $1,176,577 of the $1,198,105
total, a difference of $21,528. The State agency disagreed with the “Miscellaneous
Overcharges” section of the report, which included three findings totaling $22,037. In support of
its view, the State agency provided with its comments CMS correspondence indicating that third-
party liability amounts should be reported as positive amounts (added) on the Form CMS-64.

The State agency agreed to work with CMS to resolve the potentially unallowable costs for
(1) medical assistance workers and TANF program employees and (2) the adjustment made to
claim TANF transition costs at an enhanced Federal funding rate. As part of its conclusion, the
State agency said that it owed CMS $49,427 for the Federal share of potentially unallowable
costs for medical assistance workers and TANF program employees.

The State agency also said that it had implemented review procedures to ensure that
administrative costs are correctly compiled, assigned, and claimed, as well as a new process to
ensure that the random moment timestudy population is accurate.

The State agency’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

Based on further discussion with the State agency official who signed the comments, we
determined that the State agency disagreed only with the first two findings in the “Miscellaneous
Overcharges” section: costs that were fully funded through a separate Federal grant and third-
party liability costs. These two findings totaled $21,528 (Federal share).

Regarding costs that were fully funded through a separate Federal grant, the State agency did not
provide additional support for allocating the costs to the Medicaid program.

Regarding third-party liability costs, the State agency’s correspondence with CMS related to the
fourth quarter of fiscal year 2007, not to our audit period, which ended September 30, 2004.
Additionally, during the audit, the State agency provided us with CMS correspondence
specifically stating that the State agency should offset (subtract) third-party liability costs from
the Form CMS-64 for the audit period. The State agency did not offset these costs.

After reviewing the State agency’s comments and the documentation that it provided, we
maintain that our findings and recommendations are valid and that the State agency should
refund the entire $1,198,105 to CMS.




                                             11
APPENDIX
APPENDIX
 Page 1 of 6
APPENDIX
 Page 2 of 6
APPENDIX
 Page 3 of 6
APPENDIX
 Page 4 of 6
APPENDIX
 Page 5 of 6
APPENDIX
 Page 6 of 6
